IN THE ST]PREMI' COURT

OIT

THE IJNITED STATI'S

No. 21-5592
JoHN H. Raurnnz
Petiti.oner,
V.

BnvaN CollInR, Expcuttvn DIRnctoR,
Tnxas DBpantviENT oF CntuINal JustICB, ETAL.,
Respondents.

CERTIFICATE OF WORD COUNT
Pursuant to RuIe 33.1(h) of the Rules of this Court, I certify that the
accompanying Brief of

F

ormer Prison Officials as Amici Curiae in Support of

Petitioner, which was prepared using Century Schoolbook 12-point typeface,
contains 4,903 words, excluding the parts of the document that are exempted by
Rule 33.1(d). This certificate was prepared in reliance on the word-count function
of the word-processing system (Microsoft Office Word 2013) used to prepare the

document.

I declare under penalty of perjury that the foregoing is true

and correct.

Executed on September 27,202I.

h:^/

( W-u-*fd**

David C. Frederick
Counsel of Record for Amici Curiae
Former Prison Officials

